          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Site Visit Report




        American Recovery and
        Reinvestment Act Site Visit of the
        Clifton Street Sewer Separation and
        Water Main Replacement Projects,
        Portland, Maine

        Report No. 11-R-0248

        June 7, 2011
Report Contributors:                               Jean Bloom
                                                   Philip Cleveland
                                                   Shannon Schofield
                                                   Bill Spinazzola




Cover photo: Clifton Street Sewer Separation and Water Main Replacement Projects under
             construction, Portland, Maine. (EPA OIG photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                                11-R-0248
                                                                                                           June 7, 2011
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review                   American Recovery and Reinvestment Act
The U.S. Environmental Protection
                                         Site Visit of the Clifton Street Sewer
Agency, Office of Inspector              Separation and Water Main Replacement
General, conducts site visits of clean   Projects, Portland, Maine
water and drinking water projects
funded by the American Recovery           What We Found
and Reinvestment Act of 2009
(Recovery Act). We selected the
                                         We conducted an unannounced site visit of the Clifton Street Sewer
Clifton Street Sewer Separation and
                                         Separation and Water Main Replacement Projects in the City of Portland,
Water Main Replacement Projects in
                                         Maine, from June 15 through June 17, 2009. The projects were performed
the City of Portland, Maine, for
                                         jointly by the City of Portland, Maine (sewer separation) and Portland Water
review.
                                         District (water main replacement). We toured the projects and interviewed
                                         city representatives, water district representatives, and contractor personnel.
Background
                                         We also reviewed documentation related to Recovery Act requirements.
The Maine Municipal Bond Bank,
acting on behalf of the Maine            We conducted our field work phase from June 15, 2009, to April 7, 2011.
Department of Environmental              Our work was suspended for a period of time prior to completion.
Protection, provided Recovery Act
funds of $2,063,665, with $747,898       Based upon our site visit, no issues or concerns came to our attention that
for principal forgiveness, through       would require action from the city, the Portland Water District, or the
the Clean Water State Revolving          U.S. Environmental Protection Agency.
Fund Program to the City of
Portland for the Clifton Street Sewer
Separation Project. The bank also
provided to the Portland Water
District, on behalf of the Maine
Department of Health and Human
Services, $380,205, with $114,062
for principal forgiveness, through
the Drinking Water State Revolving
Fund Program for the Clifton Street
Water Main Replacement Project.


For further information, contact
our Office of Congressional,
Public Affairs and Management at
(202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110607-11-R-0248.pdf
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460


                                                                           THE INSPECTOR GENERAL




                                           June 7, 2011

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Visit of the Clifton Street
          Sewer Separation and Water Main Replacement Projects, Portland, Maine
          Report No. 11-R-0248


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Curt Spalding
               Regional Administrator, Region 1
               U.S. Environmental Protection Agency


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. The report summarizes the results of our site visit of the
Clifton Street Sewer Separation and Water Main Replacement Projects in the City of Portland,
Maine.

We performed this site visit as part of our responsibility under the American Recovery and
Reinvestment Act of 2009. The purpose of our site visit was to determine whether the City of
Portland and the Portland Water District complied with selected requirements of the Recovery
Act pertaining to the Clean Water State Revolving Fund and Drinking Water State Revolving
Fund Programs. The city received a loan from the Maine Municipal Bond Bank for the Clifton
Street Sewer Separation Project totaling $2,063,665, with $747,898 for principal forgiveness,
through the Clean Water State Revolving Fund Program. The Portland Water District received a
loan from the Maine Municipal Bond Bank for the Clifton Street Water Main Replacement
Project totaling $380,205, with $114,062 for principal forgiveness, through the Drinking Water
State Revolving Fund Program.

The estimated direct labor and travel costs for this report are $89,678.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
The report will be made available at http://epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899; or Robert Adachi, Director of Forensic
Audits, at (415) 947-4537 or adachi.robert@epa.gov.
Purpose
                 The purpose of the site visit was to determine whether the City of Portland,
                 Maine, and the Portland Water District, Portland, Maine, are in compliance with
                 selected requirements of the American Recovery and Reinvestment Act of 2009
                 (Recovery Act) pertaining to the Clean Water State Revolving Fund and Drinking
                 Water State Revolving Fund Programs.

Background
                 The city received a loan from the Maine Municipal Bond Bank for the Clifton
                 Street Sewer Separation Project totaling $2,063,665, with $747,898 for principal
                 forgiveness, through the Clean Water State Revolving Fund Program. The Maine
                 Municipal Bond Bank is the financial manager of the Maine Clean Water State
                 Revolving Fund Program. The Maine Department of Environmental Protection
                 administers the technical aspects of the program and individual projects funded by
                 it. This project was approved to reduce the level of pollutants to water bodies and
                 correct a combined sewer overflow.

                 The Portland Water District received a loan from the Maine Municipal Bond
                 Bank for the Clifton Street Water Main Replacement Project totaling $380,205,
                 with $114,062 for principal forgiveness, through the Drinking Water State
                 Revolving Fund Program.1 The Maine Municipal Bond Bank is the financial
                 manager of the Maine Drinking Water State Revolving Fund Program. The Maine
                 Department of Health and Human Services is responsible for project management
                 and technical support, as well as overseeing activities. This project was approved
                 to replace aging infrastructure serving a population of 124,258.

Scope and Methodology
                 Due to the time-critical nature of Recovery Act requirements, we did not perform
                 this assignment in accordance with generally accepted government auditing
                 standards. Specifically, we did not perform certain steps that would allow us to
                 obtain information to assess the city’s or Portland Water District’s internal
                 controls and any previously reported audit concerns. As a result, we do not
                 express an opinion on the adequacy of the city’s or Portland Water District’s
                 internal controls or compliance with all federal, state, or local requirements.

                 We conducted an unannounced site visit during the week of June 15, 2009. Our
                 field work phase began on June 15, 2009 and ended on April 7, 2011. Our work
                 was suspended for a period of time prior to completion.


1
  The August 28, 2009, loan agreement between Maine Municipal Bond Bank and Portland Water District refers to
the Drinking Water State Revolving Fund as the Safe Drinking Water Revolving Loan Fund.



11-R-0248                                                                                                       1
                  During our visit, we:

                      1.	 Toured the project
                      2.	 Interviewed city, water district, and contractor personnel on site
                      3.	 Reviewed documentation maintained by the city, water district, and
                          project contractors on the following matters:
                              a.	 Buy American requirements under Section 1605 of the Recovery
                                  Act
                              b.	 Wage rate requirements under Section 1606 of the Recovery Act
                              c.	 Contract procurement
                              d.	 Limit on funds and reporting requirements under Sections 1604
                                  and 1512 of the Recovery Act

Results of Site Visit
                  Based upon our site visit, nothing came to our attention that would require action
                  from the U.S. Environmental Protection Agency, the State of Maine, the City of
                  Portland, or the Portland Water District. We summarize the specific site visit
                  results below.

                  Buy American Requirements

                  The Clifton Street Sewer Separation and Water Main Replacement Projects were
                  exempt from the Buy American requirement. The city solicited bids on February
                  17, 2009, for the two projects, which qualified them for the nationwide Buy
                  American waiver issued by the U.S. Environmental Protection Agency.

                  On June 2, 2009, the U.S. Environmental Protection Agency published in the
                  Federal Register, “Notice of Nationwide Waiver of Section 1605 (Buy American
                  Requirement) of the American Recovery and Reinvestment Act of 2009 (ARRA)
                  for Projects that Solicited Bids on or after October 1, 2008 and prior to
                  February 17, 2009 that are Financed through the Clean or Drinking Water State
                  Revolving Funds using Assistance Provided under ARRA.”2 Since the city’s bid
                  solicitation was made within the nationwide Buy American waiver timeframe of
                  October 1, 2008, to February 17, 2009, it qualified for the Buy American waiver.

                  Wage Rate Requirements

                  We reviewed the city’s and Portland Water District’s compliance with wage rate
                  requirements under Section 1606 of the Recovery Act. No issues or concerns
                  came to our attention that would require action.



2
  The bid solicitation was made prior to the enactment of the Recovery Act later the same day and is, therefore,
timely.


11-R-0248                                                                                                          2
            We interviewed all employees at the construction sites during our site visit to
            collect information on compensation, job duties, training, and qualifications. The
            contractor submitted copies of its certified payroll records to both the city and the
            Portland Water District to show its compliance with wage rate requirements, and
            also signed and submitted a “Statement of Compliance” with each certified
            payroll submission. We compared the wage rates on the certified payroll report to
            the applicable wage rate requirement to determine compliance. All employees
            were paid at or above the minimum required wage rate as determined by the
            Davis-Bacon Act.

            Contract Procurement

            We reviewed the city’s procurement of the subject projects and no issues or
            concerns came to our attention that would require action.

            The city determined that it would be cost beneficial to issue one bid advertisement
            for work under the two projects since construction activity would be in one
            location. The city accepted responsibility for contract procurement.

            The construction contract was competitively awarded based on public
            advertisement. In total, seven bids were received, and the contract was awarded to
            the lowest bidder overall (lowest bidder for the Sewer Separation Project and
            second-lowest for the Water Main Replacement Project).

            Our review of the request for proposal, subsequent amendments, and the contract
            awarded found that the applicable Recovery Act clauses were included.

            Limit on Use of Funds and Reporting Requirements

            We did not identify any issues or concerns with the city’s or Portland Water
            District’s compliance with the requirements under Sections 1604 and 1512 of the
            Recovery Act.

            To comply with the limitation of funds requirement of Section 1604, none of the
            funds appropriated or otherwise made available under the Recovery Act may be
            used by any state or local governments, or any private entity, for any casino or
            other gambling establishment, aquarium, golf course, or swimming pool. Based
            on our observations during the site visit, and our review of procurement
            documents, pay requests, and change orders, funds are not being used for any of
            the prohibited items noted in the Recovery Act.

            We determined that both the city and the Portland Water District provided the
            State of Maine with the required information to ensure that they are meeting the
            reporting requirements under Section 1512 of the Recovery Act. Both provided to
            the state the Section 1512 reporting information monthly via pay requests. They
            also submitted to the Maine Department of Environmental Protection certified pay
            requests that itemized dollars requested by contract for the period covered by the


11-R-0248                                                                                       3
            pay request. In addition, the city and the district provided to the state the number
            of hours worked on each contract. The city and the Portland Water District
            maintained detailed support for each pay request submitted to the state. The pay
            request was an overall summary for each project and contained the budgeted
            amount, funds dispersed to date, funds requested on the current request, and the
            balance remaining. The state, using the hours worked and a formula provided by
            the Office of Management and Budget, calculated the number of jobs saved or
            created.

Recommendations
            Based upon our site visit, no issues or concerns came to our attention that would
            require action from the city, the Portland Water District, or the U.S.
            Environmental Protection Agency.

Agency, Recipient, and Subrecipient Responses to Draft Report
            Since we had no recommendations, we did not require or receive formal written
            comments to the draft report. On May 23, 2011, we held an exit conference with
            representatives from the U.S. Environmental Protection Agency’s Region 1,
            Maine Department of Environmental Protection, Maine Department of Health and
            Human Services, City of Portland, and Portland Water District. During the
            meeting, Maine’s Department of Environmental Protection informed us that the
            $1,087,238 principal forgiveness shown in the report represents the amount for
            two projects, Clifton Street and Forest Avenue. The portion attributed to the
            Clifton Street project is $747,898.

Office of Inspector General Comment
            We verified the principal forgiveness amounts for the Clean Water State
            Revolving Fund to supporting loan documentation and adjusted the report to
            reflect the principal forgiveness allocable to the Clifton Street project.




11-R-0248                                                                                          4
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-R-0248                                                                                                                              5
                                                                              Appendix A

                                  Distribution
Office of the Administrator
Regional Administrator, Region 1
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Region 1
Public Affairs Officer, Region 1
Mayor, City of Portland, Maine
Executive Director of Asset Management and Planning, Portland Water District
Maine Clean Water State Revolving Fund Manager, Maine Department of Environmental
       Protection
Chief Engineer, Maine Drinking Water Program, Maine Department of Health and Human Services




11-R-0248                                                                              6
